Pricing Information Addendum

Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases
APR for Cash Advances
Penalty APR and When It
Applies
Minimum Interest Charge
Grace Period/Paying Interest

Balance Computation Method

29.9%
29.9%
None
If you are charged interest, the charge will be no less than $1.
Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each
month. We will begin charging interest on cash advances on the transaction date.
Average Daily Balance (including new transactions)*

Fees
Maintenance Fees

NOTICE: These maintenance fees will be assessed before you begin using your card and
will reduce the amount of credit you initially have available. For example, if you are
assigned a minimum credit limit of $300, your initial available credit will be only $225
(or $205 if you choose to have an additional card).

Annual Fee
Additional Card Fee
Transaction Fees
Cash Advance
Foreign Transaction
Penalty Fees
Late Payment
Over-the-Credit Limit
Returned Payment
Other Fees
Required Insurance,
Debt Cancellation or
Suspension Coverage

$75 first year; $75 thereafter, billed at $6.25 per month.
$20 annually (if applicable)
Either $5 or 5% of the amount of each cash advance, whichever is greater.
3% of each transaction in U.S. dollars.
Up to $27
None
Up to $27

None

*Average Daily Balance (including new transactions). The Interest Charge on Purchases and Cash Advances is calculated
using the average daily balance method, including new transactions. Under this method, the Interest Charge for a billing
cycle is computed by applying the monthly Periodic Rate to the “average daily balance” of Purchases or Cash Advances, as
applicable. To calculate the average daily balance, we take the beginning balance of Purchases or Cash Advances on the
Card Account each day, add any new Purchases or Cash Advances (which may include interest charges and other fees and
charges), and subtract any applicable payments and credits. This gives us the daily balance of Purchases or Cash Advances.
At the end of each billing cycle, we add up all these daily balances and divide by the number of days in the billing cycle to
determine the average daily balance of purchases or advances for the billing cycle.
Periodic Rate. The monthly Periodic Rate for Purchases and Cash Advances is calculated by dividing the applicable Annual
Percentage Rate disclosed by 12.

TERMS & CONDITIONS
This MASTERCARD Cardholder Agreement (the “Agreement”) governs the use of your MASTERCARD
credit card account issued by CorTrust Bank, N. A. (the “Card” or “Card Account”). Please read this
Agreement carefully before using your Card or the Card Account. The words “you” and “your” refer to each

person who applied for the Card Account and to each person to whom a Card is issued or uses a Card with your
consent (an “Authorized User”). The words “we”, “us”, “our”, and the “Bank” refer to CorTrust Bank, N.A.,
Mitchell, South Dakota, Member FDIC.
Your application for the Card Account and your use of the Card constitute your agreement to the terms and
conditions of this Agreement. Keep this Agreement so you can refer to it if you have any questions regarding
your Card Account. This Agreement is effective when you or an authorized user uses the Card or Card Account
or if you fail to cut your Card in half and return it to us within 30 days after it is issued to you.
Please see the separate Privacy Notice that we are providing to you for important additional information
concerning our privacy policy and your privacy rights. This Agreement contains a binding arbitration
provision. Please see Section 23 for details regarding mandatory arbitration and your right to opt-out of
such arbitration.
Your acceptance of the Card will indicate your agreement to pay all charges incurred and any indebtedness
incurred in accordance with the terms and conditions of this Agreement. These terms and conditions are subject
to change from time to time, in our sole discretion, upon notice to you as required by law.
1.
USING YOUR CARD: You may use your Card to make purchases of goods or services wherever
MASTERCARD credit cards are accepted. You may obtain cash advances (i.e., loans of money) through
participating financial institutions, including the Bank. Any cash equivalents obtained with the Card will also
be treated as cash advances. Each purchase or cash advance you obtain will reduce the available credit under
your credit limit until the purchase or cash advance is repaid. You promise to pay us the total amount of all
purchases and cash advances, as well as all interest charges and other fees and charges, billed to your Card
Account.
2.
YOUR CREDIT LIMIT AND CREDIT AVAILABILITY: Your Card will be issued with a
minimum initial credit limit of $300 and up to a maximum credit limit of $1,500. Please note that if you qualify
for a $300 credit limit, you will have available credit of $225 after applying the Annual Fee of $75. Optional
fees may further reduce this amount. Your outstanding balance of cash advances may not exceed 50% of your
credit limit. We reserve the right to modify your credit limit from time to time. You agree not to engage in any
Card transaction that would cause your outstanding balance to exceed your credit limit. At our sole discretion,
we may authorize a Purchase which exceeds your Credit Limit or otherwise permit additional credit. Your
current credit limit will appear on your monthly billing statement.
3.
CREDIT LIMIT INCREASES: If you make all your payments on time, pay substantially more than
the minimum due each month, and meet certain other criteria, we may, in our sole discretion based on this and
other information, increase your credit limit.
4.
YOUR MONTHLY STATEMENT: Your Card Account will be on a monthly billing cycle. We will
send you a statement whenever there is activity or a balance on your Card Account. The bottom portion of the
statement will serve as your bill and should be returned with your payment. The upper portion of the statement
itemizes your Card Account activity, including purchases, cash advances, other charges and payments posted
during the billing period. You should retain the upper portion of your statement for future reference and as a
receipt.
5.
MINIMUM PAYMENTS: If you want to reduce additional interest charges, you should pay your New
Balance in full by the payment due date. If you prefer, you can pay less than the full New Balance, but you
must pay at least the Minimum Payment Due as shown on your statement. The Minimum Payment Due is the
sum of (i) the greater of: $30; 4% of your New Balance; or 1% of your New Balance plus the current billing
2

cycle’s Late Payment Fee and Interest Charges, plus (ii) any amount past due, plus (iii) any amount that your
Card Account exceeds your assigned credit limit.
6.
MAKING PAYMENTS: We reserve the right to apply payments made on your Card Account in our
discretion. We will give you immediate credit for Card Account payments for interest charge purposes, but we
reserve the right to limit available credit resulting from any payment for up to ten days or until funds are
collected. You may not maintain a credit balance on your Card Account. If you send a payment in excess of
the full New Balance shown on your statement, we may, in our discretion, choose not to accept such payment
and return the payment to you. In the alternative, we may apply such payment to your Card Account, in which
case your Card Account may be temporarily suspended and subject to further review. To ensure prompt
posting, payments should be sent to the address located on your statement. Your payments must be made in
U.S. currency only (personal check, money order, cashier’s check, or electronic funds transfer). Do not send
cash through the mail as we will not be responsible for cash lost in the mail.
By making payment with a check, you are authorizing the use of the information on your check to make a onetime electronic debit (electronic presentment) from the account on which the check is drawn. This electronic
debit, which may be posted to your account as early as the date your check is received, will be only for the
amount of your check. If you have any questions regarding opting out of electronic presentment, call the
customer service number at 1-888-883-9826. If your check is returned unpaid for insufficient or uncollected
funds, we may also re-present your check electronically.
7.

CALCULATION OF INTEREST CHARGES:

INTEREST CHARGES. Your Card Account is subject to interest charges as follows, each of which may be
charged to your Card Account as a purchase for the purpose of calculating periodic interest charges unless
otherwise noted.
PURCHASES. The Interest Charge on Purchases is calculated using the average daily balance method,
including new transactions. Under this method, the Interest Charge for a billing cycle is computed by applying
the monthly Periodic Rate to the “average daily balance” of Purchases. The monthly Periodic Rate is calculated
as set for in Section 8 below. To calculate the average daily balance, we take the beginning balance of
Purchases on the Card Account each day, add any new Purchases (which may include interest charges and other
fees and charges), and subtract any applicable payments and credits. This gives us the daily balance of
purchases. At the end of each billing cycle, we add up all these daily balances and divide by the number of days
in the billing cycle to determine the average daily balance of purchases for the billing cycle.
PAYING INTEREST ON PURCHASES. If you pay the New Balance shown on your prior month’s periodic
statement in full by the due date shown on the statement, you will have a grace period on purchases of 25 days
(from the statement closing date to the payment due date) and can avoid periodic interest charges on current
purchases by paying the New Balance shown on your current statement in full by the due date.
CASH ADVANCES. The Interest Charge on Cash Advances is calculated using the average daily balance
method, including new advances. Under this method, the Interest Charge for a billing cycle is computed by
applying the monthly Periodic Rate to the “average daily balance” of Cash Advances. The monthly Periodic
Rate is calculated as set for in Section 8 below. To calculate the average daily balance, we take the beginning
balance of Cash Advances on the Card Account each day, add any new Cash Advances (which may include
interest charges and other fees and charges), and subtract any applicable payments and credits. This gives us
the daily balance of cash advances. At the end of each billing cycle, we add up all these daily balances and
divide by the number of days in the billing cycle to determine the average daily balance of advances for the
billing cycle.
3

PAYING INTEREST ON CASH ADVANCES. An Interest Charge on Cash Advances will be assessed from
the date the advance is posted to the Card Account until the date the advance is paid in full. There is no “grace
period” for cash advances.
8.

PERIODIC RATE; ANNUAL PERCENTAGE RATE; MINIMUM INTEREST CHARGE:

PERIODIC RATE. To calculate Interest Charges, we multiply the average daily balance by the monthly
Periodic Rate. The monthly Periodic Rate is calculated by dividing the Annual Percentage Rate by 12. For
more information regarding the Annual Percentage Rate and monthly Periodic Rate for Purchases and Cash
Advances, please refer to the attached Pricing Information Addendum. In any billing cycle when you are subject
to an Interest Charge and the Interest Charge as computed above is less than $1, you will be billed a Minimum
Interest Charge of $1.
9.

OTHER FEES AND CHARGES:

OTHER FEES AND CHARGES: In addition to the interest charges described above, other fees charges that
may be imposed on your Card Account include the following, each of which may be charged to your Card
Account as a purchase for the purpose of calculating periodic interest charges.
ANNUAL CARDHOLDER FEE. The Annual Cardholder Fee for your Card Account is $75. This fee is
imposed when your Card Account is opened. After the first year, this fee is billed at $6.25 per month. This fee
is billed directly to your Card Account. Except as provided in Section 12 entitled “Refund Policy”, or as
otherwise required by applicable law, this fee is non-refundable, even if your Card Account is canceled for any
reason during the year.
ADDITIONAL CARD FEE. If you request and we decide to grant an additional card for use by an authorized
user, there is an annual Additional Card Fee of $20 for each additional card.
CASH ADVANCE FEE. Each time you obtain a new cash advance, we will impose a transaction fee of 5% of
the amount advanced or $5, whichever amount is greater.
FOREIGN TRANSACTION FEE. If you conduct an international transaction using your Card Account, we
may impose a Foreign Transaction Fee of 3% of the U.S. dollar amount of the transaction, regardless of whether
the transaction was originally made in U.S. dollars or converted from a foreign currency.
LATE PAYMENT FEE. You will be charged a Late Payment Fee of up to $27 in any billing period in which
you fail to pay, by the Payment Due Date, at least the sum of (i) the greater of: $30; 4% of your New Balance;
or 1% of your New Balance plus the current billing cycle’s Late Payment Fee and Periodic Interest Charges,
plus (ii) any amount past due.
RETURNED PAYMENT FEE. If a check, electronic funds transfer, telephone authorized draft, or similar
payment method submitted as payment is returned for any reason, a Returned Payment Fee of up to $27 may be
assessed to your Card Account.
REPLACEMENT CARD FEE. If your Card is lost or stolen and you request a replacement Card, a
Replacement Card Fee of $20 will be assessed.

4

RUSH DELIVERY FEE. If you request special, expedited processing for a replacement Card, we may impose
a Rush Delivery Fee of $18 to your Card Account to have your Card processed more quickly and sent to you by
overnight delivery.
ACH AUTOPAY FEE. Each time we arrange, upon your request, a single payment on your Card Account by
electronic funds transfer, telephone authorized draft, or similar payment method, we may charge an ACH
Autopay Fee of $5.
COPY FEE. If you request a duplicate copy of a monthly statement, a charge of $5 per statement may be
assessed to your Card Account.
10.
OPTIONAL CORSELECT MEMBERSHIP: This optional program offers participants products and
services from national retailers. The cost of this program is billed automatically to your Card Account each
month. We do not require CorSelect membership as a condition to applying for or obtaining a Card.
11.
CANCELLATION: The primary cardholder may cancel the Card Account at any time by notifying us
in writing at the address on your monthly statement and returning all Cards issued on your Card Account, cut in
half. Even after your Card Account is closed, you remain responsible for paying any amounts you owe on the
Card Account according to the terms of this Agreement. We can suspend your Card Account privileges or
cancel your Card Account at any time, with or without cause.
12.
REFUND POLICY: You may cancel your Card Account by notifying us in writing within 30 days of
receiving this Agreement and before making any additional charges to the Card (other than the fees disclosed in
this Agreement). If you cancel your Card Account, we will refund to you or credit to your Card Account all
fees and charges in connection with your Card Account, except the Rush Delivery Fee, which is nonrefundable.
13.
IF YOUR CARD IS REFUSED: We are not responsible if a merchant, a bank or an ATM refuses to
honor your Card. Although you may have credit available, we may be unable to authorize credit for a particular
transaction due to operational difficulties or mistakes. No transaction is an amount greater than your credit limit
will be authorized in a single transaction. Transactions made above a certain dollar amount may require
authorization before the transaction is approved. The number of transactions or the total dollar amount of
authorizations you make in one day may be limited since we may limit the number of authorizations or the
dollar amount of authorizations which may be given. These restrictions are for security reasons. As a result, we
cannot explain the details of how our authorization system works. Neither we nor our agents will be
responsible if authorization for a transaction is not given. If your Card Account is overlimit or delinquent,
authorization of credit for transactions may be declined.
14.
LOST OR STOLEN CARDS: You may be liable for unauthorized use of your Card. If your Card is
lost or stolen or you suspect that someone is using your Card Account without your permission, you should
immediately notify us. You can call toll free 1-888-883-9826. You can also notify us in writing at Card
Services P.O. Box 498181, Cincinnati, OH 45249-9860. Your maximum liability for unauthorized use will not
exceed $50. You will not be liable for any unauthorized use that occurs after you notify us of the loss, theft, or
possible unauthorized use. In any event, your liability for unauthorized use will be nothing unless negligence,
untimely reporting of the loss, or fraud is shown. If you allow someone to use your Card or make charges to
your Card Account, you can terminate this user’s authority by retrieving the Card and returning it to us. Until
you do, you remain liable for any use by the authorized user.
15.
FOREIGN CURRENCY TRANSACTIONS: If you make a transaction with your MASTERCARD®
Account in a currency other than U.S. dollars, MASTERCARD® will convert the charge into a U.S. dollar
5

amount using either (a) a rate selected by MASTERCARD® from the range of rates available in wholesale
currency markets for the applicable central processing date, which rate may vary from the rate
MASTERCARD® receives, or (b) the government-mandated rate in effect for the applicable central processing
date. The exchange rate used by MASTERCARD® for a particular transaction is the rate MASTERCARD®
selects on the processing date and may differ from the rate on the date the transaction occurred or the rate on the
date the transaction is posted to your Account. If you conduct an international transaction using your Account,
we may impose a Foreign Transaction Fee as set forth in Section 9.
16.
DEFAULT / ACCOUNT CLOSURE: If you exceed your assigned credit limit, fail to make any
required payment, become insolvent, declare bankruptcy, die, violate any term of this Agreement, or provide
false information to us, or, in our discretion, we deem the prospect of repayment of your Card Account to be in
jeopardy for any reason, you will be in default. Upon your default, we shall have all remedies provided by law
including, without limitation, the right to close or refuse to renew your Card Account, demand the return of
your Card, declare your entire balance immediately due and payable, and initiate collection activity, all without
prior notice or demand. To the extent permitted by applicable law, you must pay any collection costs, including
reasonable attorney’s fees, the costs of placing you on the Warning Bulletin, and the costs of confiscating your
Card that we incur as a result of your default. No use of the Card will be authorized following default. We may
also close your Card Account at any time and for any reason.
17.
CARD OWNERSHIP AND ACCEPTANCE: Any Card issued to you remains our property, is not
transferable and must be surrendered to us upon demand.
18.
IRREGULAR PAYMENTS AND DELAY IN ENFORCEMENT, WAIVERS AND RELEASES:
We can accept late payments, partial payments, checks, and money orders marked “paid in full” or language
having the same effect without losing any of our rights under this Agreement. We can also delay enforcing our
rights under this Agreement any number of times without losing them and can waive or delay enforcing a right
against one of you without waiving or delaying it as to the other. No waiver by us of any default shall be
effective unless in writing nor operate as a waiver of any other future default.
19.
CHANGES IN AGREEMENT TERMS: We can change any term or provision of this Agreement,
including the rate at which or manner in which interest charges are calculated, at any time upon such notice to
you as required by law. At our option, any change will apply to both your new activity and to your outstanding
balance when the change is effective. You will be deemed to have accepted the new terms if you use your Card
after the effective date or if you fail to notify us in accordance with applicable law. For changes in the
Agreement terms write to: CorTrust Bank, N.A., P.O. Box 7030, Mitchell, SD 57301.
20.
GOVERNING LAW: This Agreement is entered into in the State of South Dakota where the decision
to grant credit will be made. Therefore, this Agreement is governed by and should be interpreted in accordance
with federal law, and to the extent not pre-empted, the laws of the State of South Dakota, regardless of your
state of residence, and without reference to conflict of law provisions.
21.
AUTHORIZED USER: If you request an authorized user, both you and the authorized user may
obtain purchases and cash advances (but the total of these purchases and cash advances cannot exceed the credit
limit). You and any authorized user are obligated, jointly and severally, for all charges, interest charges, and
fees incurred by the authorized user, but we are not required to seek recovery from the authorized user before
requiring payment by you. The authorized user may not close the Card Account. If we close the Card Account,
we will notify you and the notice will be effective for both of you.

6

22.
ILLEGAL AND GAMBLING TRANSACTIONS: Your Card cannot be used for illegal transactions.
Use of your Card for gambling transactions (including obtaining cash advances for purposes of gambling),
whether such transaction is legal or illegal, is prohibited.
23.
ARBITRATION: PLEASE READ THIS PROVISION OF THE AGREEMENT CAREFULLY.
UNLESS YOU EXERCISE THE RIGHT TO OPT-OUT OF ARBITRATION IN THE MANNER
DESCRIBED BELOW, YOU AGREE THAT ANY DISPUTE WILL BE RESOLVED BY BINDING
ARBITRATION. ARBITRATION REPLACES THE RIGHT TO GO TO COURT, INCLUDING THE
RIGHT TO HAVE A JURY, TO ENGAGE IN DISCOVERY (EXCEPT AS MAY BE PROVIDED IN
THE ARBITRATION RULES), AND TO PARTICIPATE IN A CLASS ACTION OR SIMILAR
PROCEEDING. IN ARBITRATION, A DISPUTE IS RESOLVED BY AN ARBITRATOR INSTEAD
OF A JUDGE OR JURY. ARBITRATION PROCEDURES ARE SIMPLER AND MORE LIMITED
THAN COURT PROCEDURES. YOU ALSO AGREE ANY ARBITRATION WILL BE LIMITED TO
THE DISPUTE BETWEEN YOU AND US AND WILL NOT BE PART OF A CLASS-WIDE OR
CONSOLIDATED ARBITRATION PROCEEDING.
Agreement to Arbitrate. You and we agree that any Dispute, except as provided below, will be resolved by
arbitration. This agreement is governed by the Federal Arbitration Act (FAA), 9 U.S.C.S. § 1 et seq. and the
substantive law of the State of South Dakota (without applying its choice-of-law rules).
Arbitration Defined. “Arbitration” is a means of having an independent third party resolve a Dispute. A
“Dispute” is any claim or controversy of any kind between you and us. The term Dispute is to be given its
broadest possible meaning and includes, without limitation, all claims or demands (whether past, present, or
future, including events that occurred prior to the opening of this Card Account and whether or not a credit card
is issued), based on any legal or equitable theory (contract, tort, alleged regulatory violation, or otherwise) and
regardless of the type of relief sought (i.e., money, injunctive relief, or declaratory relief). A Dispute includes,
by way of example and without limitation, any claim based upon a federal or state constitution, statute,
ordinance, regulation, or common law, and any issue concerning the validity, enforceability, or scope of this
arbitration agreement.
For purposes of this arbitration provision, the terms “you” and “your” include any co-signer, co-obligor,
guarantor, or authorized user and also your heirs, guardian, personal representative, or trustee in bankruptcy.
The terms “we,” “our,” and “us” include our employees, officers, directors, members, managers, attorneys,
affiliated companies, predecessors, and assigns, as well as our marketing, servicing, and collection
representatives and agents.
Choice of Arbitrator. The party filing an arbitration must choose either of the following arbitration firms for
initiating and pursuing an arbitration: the American Arbitration Association or JAMS (formerly known as
Judicial Arbitration and Mediation Services, Inc.). If you claim you have a Dispute with us, but you do not
initiate an arbitration or select an arbitrator, we may do so. You may obtain copies of the current rules of each
of the arbitration firms and forms and instructions for initiating an arbitration by contacting them as follows:
American Arbitration Association
335 Madison Avenue, Floor 10
New York, NY 10017-4605
Website: www.adr.org
JAMS
1920 Main Street, Suite 300
Irvine, CA 92614
7

Website: www.jamsadr.com
The policies and procedures of the selected arbitration firm will apply provided that these are consistent with
this arbitration agreement. To the extent the arbitration firm’s rules or procedures are different than the terms of
this arbitration agreement, the terms of this agreement will apply.
If neither arbitration firm listed in this agreement is available to resolve the Dispute, you and we may each
select a local arbitrator. The local arbitrators selected by you and us shall then agree upon the selection of
another arbitrator who will hear and resolve the Dispute. The arbitrator selected to resolve the Dispute must be
an attorney with at least 10 years experience, retired judge, or arbitrator registered and in good standing with an
arbitration association and arbitrate pursuant to such arbitrator’s rules applicable to consumer disputes.
Notwithstanding the foregoing, no party or local arbitrator may select an arbitrator who refuses to enforce an
arbitration agreement containing a class-action waiver, because you and we have in this arbitration agreement
waived any right to arbitrate a dispute on a class-action, representative-action, or consolidated basis.
What Arbitration Costs. If you initiate the arbitration, you will be responsible for the first $50 of filing fees
and other costs or fees, and we will pay the balance of the filing fee and any costs or fees charged by the
arbitrator above the first $50. If you cannot afford to pay the first $50, we may pay this in our discretion. If we
initiate the arbitration, we will pay the filing fee and any costs or fees charged by the arbitrator. Unless
prohibited by law, the arbitrator may award fees, costs, and reasonable attorneys’ fees to the party who
substantially prevails in the arbitration.
Location of Arbitration. Unless you and we agree to a different location, the arbitration will be conducted in
the same city as the United States District Court closest to your then current mailing address.
Waiver of Rights. You are waiving your right to a jury trial, to have a court decide your Dispute, to participate
in a class action lawsuit, and to certain discovery and other procedures that are available in a lawsuit. The
arbitrator has the ability to award all remedies available by statute, at law, or in equity to the prevailing party,
except that you and we agree that the arbitrator has no authority to conduct class-wide proceedings and will be
restricted to resolving the individual disputes between you and us. The validity, effect, and enforceability of
this waiver of class action lawsuit and class-wide arbitration is to be determined solely by a court of competent
jurisdiction and not by the arbitration firm or arbitrator. If the court, or an arbitration firm or arbitrator, refuses
to enforce the class-wide arbitration waiver or otherwise refuses to enforce this Agreement, you and we agree
that the Dispute will proceed in court and will be decided by a judge, sitting without a jury, under applicable
court rules and procedures.
Small Claims Court. All parties, including related third parties, shall retain the right to seek adjudication in a
small claims court for disputes within the scope of such court's jurisdiction. Any dispute, which cannot be
adjudicated within the jurisdiction of a small claims court, shall be resolved by binding arbitration. Any appeal
of a judgment from a small claims court shall be resolved by binding arbitration de novo (i.e. upon a fresh
review of the facts).
Applicable Law and Judicial Review. The arbitrator will apply applicable federal and South Dakota
substantive law and the terms of this Agreement. The arbitrator must apply the terms of this arbitration
agreement, including without limitation the waiver of class-wide arbitration. The arbitrator will make written
findings and the arbitrator’s award may be filed with any court having jurisdiction. The arbitration award will
be supported by substantial evidence and must be consistent with this Agreement and applicable law or may be
set aside by a court upon judicial review. Either party may seek judicial review of the arbitrator’s decision
according to applicable law.
8

Other Provisions. This arbitration provision will survive: (i) termination or changes in this Agreement, the
Card Account, or the relationship between you and us concerning the Card Account; (ii) the bankruptcy of any
party; and (iii) any transfer, sale, or assignment of your Card Account, or any amounts owed on your Card
Account, to any other person or entity.
Right to Opt-Out. If you do not wish to agree to arbitrate all Disputes in accordance with the terms and
conditions of this section, you must advise us in writing at the following address within 30 days of when we mail
this Agreement to you: CorTrust Bank, N.A., P.O. Box 7030, Mitchell, SD 57301. Clearly print or type your
name and Card Account number and state that you reject arbitration. You must give written notice, and it is not
sufficient to telephone us. Send only your notice to reject arbitration; do not include the notice with other
correspondence to us. We must receive your letter at the above address within 30 days after the date this
Agreement was provided to you or your rejection of arbitration will not be effective.
24.
VENUE AND JURISDICTION: In the event any Dispute is not subject to arbitration, you consent to
be subject to the jurisdiction and venue of the Circuit Court located in Minnehaha County, South Dakota, and
agree that such court shall be the sole and exclusive jurisdiction and venue of all Disputes.
25.
SEVERABILITY: If any provision of this Agreement, including any portion of the arbitration
agreement set forth above in Section 23, is determined to be invalid or unenforceable under any rule, law, or
regulation, the validity or enforceability of any other provision of this Agreement shall not be affected, and in
lieu of such invalid or unenforceable provision there shall be added automatically, as part of this Agreement, a
provision as similar in terms as may be valid and enforceable, if possible. Notwithstanding the foregoing, if a
class action litigation or a class-wide arbitration is permitted for any reason, either party may require that the
entire Dispute, as defined in Section 23 above, be heard by a judge, sitting without a jury, under applicable
court rules and procedures.
26.
MONITORING. In order to maintain quality service in its authorizations, security, customer service
and other departments that have need to communicate with Cardholder from time to time, the Bank or its agents
may monitor any telephone communication between the Bank’s or its agent’s employees in those departments
and Cardholder, without further notice or disclosure.
27.
CONTACT AUTHORIZATION. You authorize us and any other servicer of your account to contact
you about your account at any telephone number (or other means of communication) you provide, including
communications to or from your mobile or cellular phone, or similar device, even if you are charged for the
communication under your usage plan. We may contact you by sending text messages or e-mails, using any email address you provide to us. You agree we may use an automatic dialing system or artificial or prerecorded
message when contacting you. You may revoke your consent to be contacted at any telephone number you
provide by calling us at 1-888-883-9826. If you revoke your consent to be contacted and fail to provide an
alternative telephone number that we may use to contact you in accordance with this Section, we will close your
Card Account.

YOUR BILLING RIGHTS
KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find a Mistake On Your Statement
If you think there is an error on your statement, write to us at:
9

Card Services
P.O. Box 498181
You may also contact us on the Web:
www.cortrustbankcc.com
In your letter, give us the following information:
 Account information: Your name and Account number.
 Dollar amount: The dollar amount of the suspected error.
 Description of problem: If you think there is an error on your bill, describe what you believe is wrong
and why you believe it is a mistake.
You must contact us:
 Within 60 days after the error appeared on your statement.
 At least 3 business days before an automated payment is scheduled, if you want to stop payment on the
amount you think is wrong.
You must notify us of any potential errors in writing or electronically. You may call us, but if you do we are not
required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell
you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we
believe the bill is correct.
While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question, or report you as delinquent on that amount.
 The charge in question may remain on your statement, and we may continue to impose Interest Charges
on that amount.
 While you do not have to pay the amount in question, you are responsible for the remainder of your
balance.
 We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
 If we made a mistake: You will not have to pay the amount in question or any Interest Charges or other
fees related to that amount.
 If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable Interest Charges and fees. We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us
that you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has been settled between us.

10

If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even
if your bill is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your Card, and you have tried in
good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount
due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are necessary if
your purchase was based on an advertisement we mailed to you, or if we own the company that sold you
the goods or services.)
2. You must have used your Card for the purchase. Purchases made with Cash Advances from an ATM or
with a check that accesses your Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing or
electronically at:
Card Services
P.O. Box 498181
Cincinnati, OH 45249-9860
www.cortrustbankcc.com
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not pay,
we may report you as delinquent.

NOTICES
By responding to the credit card offer made by the Bank, you are authorizing us to obtain credit reports about
you, both now and in the future, for any legitimate business purpose associated with the Card Account,
including, but not limited to, reviewing, modifying, renewing or collecting on your Card Account.
1. CALIFORNIA RESIDENTS: A married applicant may apply for a separate Card Account. As required
by law, you are hereby notified that a negative credit report reflecting on your credit record may be
submitted to a credit reporting agency if you fail to fulfill the terms of your credit obligations. After
credit approval, each applicant shall have the right to use the Card Account up to the limit of the Card
Account. Each applicant may be liable for amounts extended under the plan to any joint applicant.
2. DELAWARE RESIDENTS: Service charges not in excess of those permitted by law will be charged on
the outstanding balances from month to month.
3. KENTUCKY RESIDENTS: You may pay the unpaid balance of your Card Account in whole or in part
at any time.
4. MARYLAND RESIDENTS: Finance charges will be imposed in amounts or at rates not in excess of
those permitted by law.
11

5. NEW YORK RESIDENTS: New York residents may contact the New York State Department of
Financial Services by telephone at 1-800-342-3736 or visit its website at www.dfs.ny.gov for free
information on comparative credit card rates, fees and grace periods.
6. OHIO RESIDENTS: The Ohio laws against discrimination require that all creditors make credit equally
available to all creditworthy customers, and that credit reporting agencies maintain separate credit
histories on each individual upon request. The Ohio Civil Rights Commission administers compliance
with this law.
7. WISCONSIN RESIDENTS: No agreement, court order, or unilateral statement applying to marital
property will adversely affect a creditor’s interests unless prior to the time credit is granted, the creditor
is furnished with a copy of the agreement, court order or statement, or has actual knowledge of the
adverse provision. IF I AM A MARRIED RESIDENT, CREDIT EXTENDED UNDER THIS CARD
ACCOUNT WILL BE INCURRED IN THE INTEREST OF MY MARRIAGE OR FAMILY. A
married applicant must send the applicant’s name and social security number, and the name and address
of the applicant’s spouse, to CorTrust Bank, N.A., P.O. Box 7030, Mitchell, SD 57301 within fifteen
(15) days of completing an application.
October 2018

12

